<html>
<title> - HEARING ON THE NOMINATION OF VANESSA SUTHERLAND TO BE A MEMBER AND CHAIRPERSON OF THE CHEMICAL SAFETY BOARD</title>
<body><pre>[Senate Hearing 114-26]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 114-26

                      HEARING ON THE NOMINATION OF
   VANESSA SUTHERLAND TO BE A MEMBER AND CHAIRPERSON OF THE CHEMICAL 
                              SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-993 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 22, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    33

                                WITNESS

Sutherland, Vanessa Allen, nominated to be a Member and 
  Chairperson of the Chemical Safety Board.......................     6
    Prepared statement...........................................     8
    Responses to additional questions from:......................
        Senator Inhofe...........................................    12
        Senator Markey and Senator Rounds........................    23

 
  HEARING ON THE NOMINATION OF VANESSA SUTHERLAND TO BE A MEMBER AND 
                CHAIRPERSON OF THE CHEMICAL SAFETY BOARD

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Fischer, Rounds, Boxer, and 
Gillibrand.
    Senator Inhofe. We welcome our witness. Vanessa, I 
appreciate the time that you gave me, filling me in on your 
background and your intentions. I appreciate it very much.
    There are three must-ask questions. First of all, do you 
agree, if confirmed, to appear before this committee, or 
designated members of this committee and other appropriate 
committees of the Congress, and provide information subject to 
appropriate and necessary security protection with respect to 
your responsibilities?
    Ms. Sutherland. I do.
    Senator Inhofe. Do you agree to ensure that testimony, 
briefings and documents in electronic and other forms of 
communication of information are provided to this committee, 
its staff and other appropriate committees in a timely manner?
    Ms. Sutherland. I do.
    Senator Inhofe. Do you know of any matters which you may or 
may not have disclosed that might place you in a conflict of 
interest if you are confirmed?
    Ms. Sutherland. I do not.
    Senator Inhofe. First of all, Ms. Sutherland, thank you for 
being here today.
    I want you to introduce your family, particularly that cute 
little girl back there.
    Ms. Sutherland. That is Sydney Sutherland who got a free 
pass and excused absence from kindergarten today to come. Next 
to her is what I thought was my mini-me until she sits next to 
her father and it is actually his mini-me, Emmanuelle 
Sutherland.
    We have some colleagues from DOT with whom I have worked 
for the last 4 years throughout different agencies and modes.
    Senator Inhofe. Very good. Thank you.
    Ms. Sutherland. I think at some point, my mother will make 
it through security.
    Senator Inhofe. Does she have a security problem?
    Ms. Sutherland. No, just a little slow in walking.
    Senator Inhofe. All right.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The Chemical Safety Board is a deeply 
troubled agency and its next Chairman will have to address a 
number of issues relating to how the agency is managed.
    Just last Tuesday, the EPA Inspector General, who acts as 
the CSB Inspector General, told our oversight subcommittee that 
the prior chairman, Rafael Moure-Eraso, likely committed 
perjury and other crimes during his tenure at the CSB. 
Thankfully, Mr. Moure-Eraso has resigned, but his legacy of 
mismanagement, harassment, and turmoil remains.
    For example, in a July 30, 2013 report, the EPA Inspector 
General said ``CSB does not have an effective management system 
to meet its established performance goal to conduct incident 
investigations and safety studies concerning releases of 
hazardous chemical substances.''
    On June 19, 2014 former CSB Board Member Beth Rosenberg 
testified to a House committee that, in her time on the CSB 
Board, ``Those whose opinions differ from those of senior 
leadership or the Chair are marginalized and vilified. At the 
CSB, disagreement is seen as disloyalty. Criticism is not 
welcome and staff fear retaliation.''
    On March 4, 2015, current board member Mark Griffon 
testified to a House committee that ``management deficiencies, 
including an untenable turnover rate, have also contributed to 
the inefficiencies in completing investigations.''
    On January 28, 2015, despite the congressional and 
Inspector General investigations about their mismanagement, 
former Chairman Moure-Eraso, with the cooperation of Board 
Member Ehrlich, took action to give the Chairman and Managing 
Director complete control of the CSB by dissolving 18 Board 
Orders that spelled out authorities for individual board 
members and approving a new order that removes board oversight 
of the actions of the Chairman. The public and even the other 
CSB Board member, Mr. Griffon, had no notice of the plans to 
restructure CSB operations.
    According to investigations conducted by the House 
Oversight and Government Reform Committee, the former Chairman, 
the Managing Director, and the General Counsel used private 
email accounts to hide their plans for operating the CSB from 
other board members and CSB staff. After the EPA Inspector 
General learned about this, he sent a January 2015 report to 
President Obama concluding that Mr. Moure-Eraso and two of his 
senior officials violated the Federal Records Act.
    In a March 14, 2015, letter to President Obama, both 
Senator Rounds and I asked for the immediate resignation of Mr. 
Rafael Moure-Eraso. Two weeks later, Mr. Moure-Eraso resigned.
    Mr. Moure-Eraso has now left the CSB and you have been 
nominated to take his place. The senior staff, implicated in 
numerous investigations alongside the previous chairman, 
unfortunately remain.
    Given the current state of affairs at the CSB, I will be 
very interested to hear first, how you plan to address the 
mismanagement and toxic work environment at the CSB, and two, 
your views on what authority should be held by the Chairman of 
the CSB and what authority should be held by the Board as a 
whole.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Ms. Sutherland, thank you for being here today.
    The Chemical Safety Board is a deeply troubled agency and 
its next Chairman will have to address a number of issues 
relating to how the agency is managed.
    Just last Tuesday, the EPA Inspector General (who acts as 
the CSB Inspector General) told our oversight subcommittee that 
the prior Chairman, Rafael Moure-Eraso, likely committed 
perjury and other crimes during his tenure at the CSB.
    Thankfully, Mr. Moure-Eraso has resigned. But his legacy of 
mismanagement, harassment, and turmoil remains. For example:
    In a July 30, 2013 report the EPA Inspector General said 
that:
    CSB does not have an effective management system to meet 
its established performance goal to ``[c]onduct incident 
investigations and safety studies concerning releases of 
hazardous chemical substances.''
    On June 19, 2014 former CSB Board Member Beth Rosenberg 
testified to a House committee that, in her time on the CSB 
Board:
    Those whose opinions differed from those of senior 
leadership or the Chair are marginalized and vilified. At the 
CSB, disagreement is seen as disloyalty. Criticism is not 
welcome and staff fear retaliation.
    On March 4, 2015 current Board Member Mark Griffon 
testified to a House committee that ``management deficiencies--
including an untenable turnover rate--have also contributed to 
the inefficiencies in completing investigations.''
    On January 28, 2015, despite the congressional and 
Inspector General investigations about their mismanagement, 
former Chairman Moure-Eraso, with the cooperation of Board 
Member Ehrlich, took action to give the Chairman and Managing 
Director complete control of the CSB by dissolving 18 Board 
Orders that spelled out authorities for individual Board 
members and approving a new order that removes Board oversight 
of the actions of the Chairman.
    The public and even the other CSB Board member, Mr. 
Griffon, had no notice of the plans to restructure CSB 
operations.
    According to investigations conducted by the House 
Oversight and Government Reform Committee, the former Chairman, 
the Managing Director, and the General Counsel used private e-
mail accounts to hide their plans for operating the CSB from 
other Board members and CSB staff.
    After the EPA Inspector General learned about this, he sent 
a January 2015 report to President Obama concluding that Mr. 
Moure-Eraso and two of his senior officials violated the 
Federal Records Act.
    In a March 14, 2015, letter to President Obama, both 
Senator Rounds and I asked for the immediate resignation of Mr. 
Rafael Moure-Eraso. Two weeks later, Mr. Moure-Eraso resigned.
    Mr. Moure-Eraso has now left the CSB and you have been 
nominated to take his place.
    Given the current state of affairs at the CSB, I will be 
very interested to hear--
    1. How you plan to address the mismanagement and toxic work 
environment at the CSB, and
    2. Your views on what authority should be held by the 
Chairman of the CSB and what authority should be held by the 
Board as a whole.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    Welcome, and to your family as well. The little one may not 
know exactly what this is about but she knows it is important. 
I think she will remember it.
    I want to begin by welcoming you, Vanessa Sutherland, to 
the Committee on Environment and Public Works as we consider 
your nomination.
    The confirmation of qualified individuals to lead Federal 
agencies is an important responsibility of the Senate. It is 
critical that we move forward with the nominations under the 
jurisdiction of this committee so that our Federal agencies can 
fulfill their mission to serve the American people.
    I just recently looked at the ratings that Congress has. I 
am sorry to say it is very low. One of the issues I hear from 
people at home is, why is it that we do not move these 
nominations. We need to do that. I do not care whether you have 
a Democrat in the White House or a Republican, or whether I 
like that person or not; it is immaterial. The point is every 
President deserves to have a team in place.
    There is another Safety Board nominee waiting, Kristen 
Kulinowski, to be a member of the CSB. Since we have all of her 
paperwork, I certainly hope we can move forward with her 
nomination because if we do not have boards that have their 
full membership, sometimes they can become completely paralyzed 
and cannot do anything because they do not have enough members.
    Ms. Sutherland currently serves as Chief Counsel to the 
Pipeline and Hazardous Material Safety Administration of the 
U.S. Department of Transportation. She has held that position 
since October 2011.
    The CSB plays a critical role in protecting our communities 
from chemical hazards by investigating industrial chemical 
accidents involving fatalities, serious injuries, or 
substantial property damages and making recommendations to 
industry and Federal and State agencies so that similar events 
might be prevented.
    Two years ago this month, a massive explosion at a 
fertilizer distribution plant in West, Texas, killed 15 people, 
injured hundreds more, and damaged or destroyed homes, 
businesses, and three unoccupied schools. We shudder to think 
if those schools had been occupied what we would have been 
dealing with.
    After the disaster in West, Texas, President Obama issued 
an Executive Order establishing a working group to conduct a 
comprehensive review of our chemical safety and security 
programs and asked them to develop recommendations for 
improving these programs. However, I am very concerned that 
despite the clear risks posed by our Nation's chemical 
facilities, very little progress has been made to improve 
safety.
    Ms. Sutherland, if confirmed, you are going to face a 
number of challenges, including tackling the backlog of open 
investigations, the recent resignation of the Chairman, and 
making sure that everyone pulls together to address the 
management and governance issues between the Chairman and other 
members of the Board. Many of those have been cited by my 
friend, Senator Inhofe.
    The problems that preceded you were bad. We have to call it 
what it is, so you have a daunting challenge but a tremendous 
opportunity.
    I have found, watching as long as I have and being involved 
in trying to get things done, leadership matters. I am very 
interested in your nomination. I believe that you have the 
requisite background to take on these challenges. It is a huge 
responsibility.
    Not everyone is going to love you. That is the price you 
pay when you step into a leadership role. I know that to be 
true. However, I believe what former President Clinton said to 
me a long time ago, you have to be strong when you are a 
leader. You have to be willing to take the blows.
    I think you have a lot of challenges. In my question time, 
I will ask you about those but I am very hopeful that you have 
what it takes to get this job done.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    I want to begin by welcoming Vanessa Sutherland to the 
Committee on Environment and Public Works (EPW) today as we 
consider her nomination to be the next Chairman of the Chemical 
Safety Board (CSB).
    The confirmation of qualified individuals to lead Federal 
agencies is an important responsibility of the Senate. It is 
critical that we move forward with the nominations under the 
jurisdiction of this Committee so that our Federal agencies can 
fulfill their mission to serve the American people. In addition 
to Ms. Sutherland, the President has nominated Kristen 
Kulinowski to be a Member of the CSB and, since we have all of 
her paperwork, we should move forward with her nomination as 
soon as possible.
    Ms. Sutherland currently serves as Chief Counsel to the 
Pipeline and Hazardous Material Safety Administration of the 
U.S. Department of Transportation (DOT). This is a position she 
has held since October 2011.
    The CSB plays a critical role in protecting our communities 
from chemical hazards by investigating industrial chemical 
accidents involving fatalities, serious injuries, or 
substantial property damages and making recommendations to 
industry and Federal and State agencies so that similar events 
might be prevented.
    Two years ago this month, a massive explosion at a 
fertilizer distribution plant in West, Texas, killed 15 people, 
injured hundreds more, and damaged or destroyed homes, 
businesses, and three unoccupied schools. After the disaster in 
West, Texas, President Obama issued an Executive Order 
establishing a Working Group to conduct a comprehensive review 
of our chemical safety and security programs and develop 
recommendations for improving these programs. However, I am 
very concerned that despite the clear risks posed by our 
nation's chemical facilities, very little progress has been 
made to improve safety.
    If confirmed as Chairman of the CSB, Ms. Sutherland will 
face a number of challenges, including tackling the backlog of 
open investigations, the recent resignation of the Chairman, 
and addressing management and governance issues between the 
Chairman and other members of the Board.
    The No. 1 priority of the CSB is safety. Ms. Sutherland, I 
need you to take these challenges on and be committed to the 
crucial safety mission of the agency. It is a huge 
responsibility but also a key opportunity.
    I look forward to hearing from you about your vision for 
the CSB and how you intend to move the agency forward.

    Senator Inhofe. Thank you, Senator Boxer.
    Let me make an observation. Senator Boxer and I do agree on 
a lot of things and we work well together. We have a little bit 
different understanding on the advice and consent of the 
committees.
    I have always felt, yes, the President should be given 
every opportunity to surround himself with his own people.
    Senator Boxer. Or she.
    Senator Inhofe. Or she. The advice and consent is very 
important. It is well ingrained in our system, so we always 
take it seriously.
    We will recognize you now, Vanessa, for 5 minutes.

STATEMENT OF VANESSA ALLEN SUTHERLAND, NOMINATED TO BE A MEMBER 
          AND CHAIRPERSON OF THE CHEMICAL SAFETY BOARD

    Ms. Sutherland. Thank you, Chairman Inhofe, Ranking Member 
Boxer, and distinguished members of the committee.
    I am Vanessa Allen Sutherland and I am honored to have been 
nominated by President Obama to be the next Chairperson of the 
U.S. Chemical Safety Board, the CSB.
    I would like to take this opportunity to acknowledge 
members of my family and friends here today who have 
encouraged, advised and supported me significantly throughout 
this process and long before it.
    The CSB plays a unique and vital role investigating the 
most significant chemical disasters at fixed industrial sites, 
and making safety recommendations to prevent future loss of 
life and property.
    Although fortunately major disasters are rare, when they do 
occur they can have significant and lasting impacts on workers, 
employers, and communities. The Board is a non-regulatory 
agency whose investigations are not designed to punish or find 
fault, but rather to help all of us learn from these tragedies.
    First, a bit about who I am and why I am so excited about 
this nomination. My background is as a practicing attorney, and 
I hold an MBA from American University. After serving in both 
government and industry for many years, in 2011, I was 
appointed as Chief Counsel of the U.S. Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration, or PHMSA.
    PHMSA is involved in overseeing many of the same industries 
and similar hazards that the CSB investigates. As chief 
counsel, I manage a team of 31 lawyers advising the 
Administrator and senior DOT personnel on hazardous materials 
policies, interagency relationships, media and congressional 
affairs, investigative plans, and employment issues.
    Improving chemical safety is an issue that holds great 
significance for me. Within a year of my joining PHMSA, there 
was a serious gas pipeline explosion in West Virginia. The 
Administrator and I went to the site, where among others we met 
Ms. Sue Bonham, whose home was located next to the pipeline. 
Her story and testimony is one that I will never forget.
    She described to us in vivid detail the experience of 
living through a major explosion. As she would testify to the 
Senate, ``I stood in the center of my home where it was 
trembling, shifting, shaking, grinding all around me; the 
ground rumbling beneath me, thinking the earth would open up at 
any moment and swallow me.'' She recalled looking up from under 
her dining room table ``only to see everything sizzling, 
blistering or melting.''
    While Ms. Bonham miraculously survived this explosion, her 
heart-wrenching account is all too similar to the workers and 
residents who have experienced the industrial chemical 
accidents that the CSB investigates.
    From the residents of West, Texas, who saw much of their 
town destroyed by an ammonium nitrate blast in 2013, to the 
brave workers on the Deepwater Horizon, 11 of whom perished, 
these experiences are all eerily familiar and analogous.
    Despite its small size, just 40 people with an $11 million 
annual budget, the CSB has been in the forefront determining 
the technical causes of these accidents and highlighting 
opportunities for improvement.
    CSB investigators drew attention to the unsafe storage of 
ammonium nitrate at the West fertilizer depot and were also 
first to put forward a detailed explanation for why the 
Deepwater Horizon's blowout preventer failed to operate.
    The same safety management systems and practices that we 
have sought to promote for pipeline safety are equally 
important in the chemical sector. These include implementing 
good engineering practices, worker training and procedures, 
equipment inspections, and above all a safety culture that 
permeates throughout the organization, and influences all 
decisions from the CEO downward.
    Over the years, the CSB has played an important role in 
promoting these practices in the chemical sector. I have always 
believed that safety is a shared responsibility. It is shared 
among company personnel, government agencies, standard-setting 
bodies, local emergency planners and responders, and 
educational institutions.
    For the public to feel safe from low-frequency, high 
consequence chemical disasters, all these organizations need to 
work together collaboratively toward a common purpose. From my 
perspective, the CSB, through its nearly 100 major 
investigations over the years, has amassed a tremendous wealth 
of knowledge on chemical accident hazards.
    If confirmed by the Senate, I hope to use my term in office 
to encourage even greater use of this knowledge by industry, 
government agencies, and others for accident prevention and 
response. I believe the CSB's work is a tremendous and often 
untapped resource for these organizations. With education and 
collaboration, we hope the Senate will not be hearing from 
another Sue Bonham.
    Once again, I am honored by the President's nomination. I 
will be happy to answer your questions. Thank you for the 
opportunity to appear here today.
    [The prepared statement of Ms. Sutherland follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Ms. Sutherland.
    We are going to start off with 5-minute rounds. I think my 
questions will take a little longer than that so we will be 
having a second round. However, our votes are at 10:45 a.m., so 
my guess is that is going to be a drop dead time.
    I think we all agree that CSB needs a fresh start under new 
leadership and not continuation of the past policies. You and I 
talked about that in my office.
    To clear the air, I want to ask you a few questions for the 
record about your interactions with CSB. How many times have 
you spoken to Mr. Moure-Eraso, Mr. Horowitz and Mr. Loeb before 
today?
    Ms. Sutherland. I was in the office, preparing for this 
particular hearing, retrieving information and I happened to be 
there the day Dr. Moure-Eraso was leaving, so I met with him 
for the first time. I had never met him before. We spoke for 
about 15 minutes in his office. He shared very jovially, this 
will be yours, and it was a very short, pleasant conversation. 
I have not spoken with him or met with him since.
    Senator Inhofe. You did not speak with him before then?
    Ms. Sutherland. No, I had never met him before.
    Senator Inhofe. As far as the other two, Horowitz and Loeb?
    Ms. Sutherland. Probably at least a handful. They have been 
providing information such as CSB documents that might be 
helpful in preparation as a nominee and certainly have helped 
through I guess the preparation period of just discussing any 
other documents that I might need, making me accessible or 
having access to the CSB. That is probably about five or so 
times.
    Senator Inhofe. Did that include anything about their 
status as members or employees of CSB or other appropriate 
authority of the chairman and the CSB board members?
    Ms. Sutherland. No, we have never talked about their 
employment or status with regard to them personally.
    Senator Inhofe. Thank you.
    Did you have any knowledge of Board Order 2015-01 before it 
was adopted January 28?
    Ms. Sutherland. No.
    Senator Inhofe. Did you ever tell anyone in the White House 
that supported keeping Mr. Moure-Eraso as Chairman until his 
term ended?
    Ms. Sutherland. I am sorry, I am not sure I understood the 
question.
    Senator Inhofe. Did you tell anyone in the White House, 
have any conversations where you were encouraging the White 
House to keep Mr. Moure-Eraso as Chairman until his term ended?
    Ms. Sutherland. I understand. No, I do not think it is my 
place.
    Senator Inhofe. You did not do that?
    Ms. Sutherland. I do not think that is my place.
    Senator Inhofe. Did you ever tell anyone in the White House 
that you supported making Mr. Ehrlich an interim Chair?
    Ms. Sutherland. I did not.
    Senator Inhofe. In January 2015, the EPA IG notified the 
White House that CSB Chairman Moure-Eraso, General Counsel 
Richard Loeb and Managing Director David Horowitz knowingly, 
all three, violated the Federal Records Act by using personal 
email accounts to conduct official government business. The 
House investigation found that General Counsel Loeb knowingly 
used his private email because other CSB employees had access 
to the CSB servers.
    Given the fact that General Counsel Loeb and Managing 
Director Horowitz took the same actions that led to the 
dismissal of Chairman Moure-Eraso, do you think they should 
continue to serve in the top leadership positions?
    Ms. Sutherland. Those are very serious allegations. I think 
as a nominee, I, like most people in the public, have watched 
and read many of the statements both from the EPA Inspector 
General as well as several hearings that have been very 
publicly known and watched.
    Certainly as a new chairperson, I would want to immediately 
consult with my fellow board members, if confirmed, the staff, 
review very seriously the performance management of both of 
those employees, and the allegations. But as a nominee, it 
feels premature for me to have a definitive hiring or firing 
decision at this point but it certainly would be a very top 
priority, if confirmed as chairperson.
    Senator Inhofe. We were saying that given the fact that 
they took the same actions, discussed by the IG and another 
person, if that is true, do you think should continue if they 
were guilty of the same thing, the same deficiencies as the 
chairman at that time? We will put it in a hypothetical. If 
that is true, do you think they ought to be retained?
    Ms. Sutherland. I certainly believe that if employees are 
engaged in illegal behavior, that is serious and could very 
well warrant their termination immediately. If it turned out to 
be as serious as I think we have been led to believe that it is 
and has been discussed, then certainly I think as a leader 
sometimes you have to take very hard action and make sure that 
in taking those actions, you do not do anything that would 
disadvantage the agency by not having knowledge transfer, 
transition and the like.
    Certainly, as the potential Chair of the CSB, I would have 
no trouble making a hard decision if it turned out a 
termination, a hiring or a firing needs to occur.
    Senator Inhofe. In the event this is true, you would be 
willing to terminate these people?
    Ms. Sutherland. I think certainly as a Chair, I would also 
consult with my board members on that decision. Certainly they 
have been there as well but on certain types of personnel and 
employment matters, I certainly think as a Chair, I would be 
willing to take action up to termination if upon data and 
consultation, that turned out to be the right decision to make.
    Senator Inhofe. Thank you.
    Senator Boxer.
    Senator Boxer. I want to compliment you on the way you 
handled those questions because we are talking about very 
serious allegations and peoples' lives. We need to know the 
absolute facts. I think you have displayed the type of 
leadership that I appreciate so much, strong, yet cautious 
because I think that is critical.
    Thank you for asking those questions, Senator.
    I wanted to note that today is Earth Day. This is the 
Environment and Public Works Committee. I wanted to note that.
    To me, Earth Day puts a spotlight on how we have to protect 
our planet and our families. Your position is so critical. 
There are so many explosions out there that we really have not 
delved into. I want to ask you about those investigations.
    Congress created the Chemical Safety Board to conduct root 
cause investigations of industrial chemical accidents involving 
fatalities. We have not even asked you about that, so I want to 
ask you about that, serious injuries, substantial property 
damage, so that similar events might be prevented. This is 
critical.
    For example, when we look at what is being stored and how 
it is being stored and what happens, we can say we know why 
this explosion occurred because this particular chemical was 
stored in this particular way, without the proper safety 
features. This can save lives.
    There is an old religious saying, if you save one life, you 
save the world. You are going to be in a very enviable 
position, in my view, to be able to save lives. Not very many 
people are directly in that position. It is so important.
    I am worried about the limited resources that you have 
because you cannot possibly investigate every chemical accident 
that falls within your authority. When significant accidents 
happen like the fertilizer plant explosion in West, Texas, the 
CSB is called upon to conduct investigation immediately 
regardless of what other investigations are still pending.
    How would you approach addressing the need to investigate 
the next significant accident while still keeping pending 
investigations on track because we have had a series of 
problems, interagency problems where one person says, don't 
touch this, this is our domain, don't look at this and that is 
a real problem.
    Have you thought about that, the turf battles as my 
Chairman says? I feel that you have that personality that is 
going to be able to overcome this. But could you give us a 
general answer since it is complex when there are a lot of 
different agencies involved in an investigation but yours has 
the distinct, definite authority that you need to move right 
away? How do you do that without displacing other 
investigations?
    Ms. Sutherland. Thank you for that question, Senator Boxer. 
I think I can start by answering it very generally with regard 
to my experience at PHMSA.
    We are required, and we embrace, working collaboratively 
and collegially with other Federal agencies. Certainly where 
possible, we strive to share resources. In accident 
investigations, where possible, we share information. We have 
fantastic subject matter experts in pipeline safety as well as 
hazardous materials transportation. We recognize that is a 
value to others, especially in accident investigations.
    I would say that likewise with the CSB, other than the 
obvious which is keeping lines of communication open within the 
Federal Government to make sure there is not duplication, there 
are not inefficiencies, there are not gaps and that we are 
approaching safety in a collaborative approach, I think is a 
good thing.
    I certainly would want to transport that type of model and 
collegiality. We work very closely with DOJ, EPA and others at 
DOT. I see no reason why the CSB could not assert more of a 
presence in these investigations and begin to work more deeply 
and more collegially with Federal agencies because the 
information they have on accidents both past and possible, 
those that may occur in the future, is critical.
    In that shared responsibility model, I think we all have a 
seat at the table to make sure we prevent these types of 
serious accidents from happening.
    Senator Boxer. I think you are absolutely right. Our 
concern is how do we prevent this from happening again. To do 
that, we have to share the information and it does not happen. 
We have seen turf battles that have been just awful. We have to 
set aside or personalities when we are dealing with these kinds 
of things.
    This is my last question. The CSB has been criticized for 
the length of time it takes to complete investigations and 
release reports. In your opinion, from what you know so far, 
what is responsible for these delays and how would you address 
them if confirmed?
    Ms. Sutherland. Thank you for that question.
    Not having had a chance to really interview, meet with and 
get the opinions of my potential future board members and/or 
the staff to determine that, I am not specifically sure.
    In those cases that have been closed a little bit more 
quickly, because the CSB has done great work and closed some 
investigations really quickly, I would like to understand what 
differentiates those from the investigations or reports that 
may take a more significant amount of time and try to replicate 
what works in those more potentially complex or serious 
investigations.
    I suspect that it may be that some of my experience in DOT 
could be translatable in that complex investigations, 
particularly where there is a catastrophic event where evidence 
is burned and destroyed, strewn for miles, and deaths and/or 
serious injuries occur, those, in many instances, just by 
definition, are going to take some time.
    I certainly think there would be an opportunity to set 
regular check-in points, a project plan and create some 
strategies from those investigations that have not taken quite 
as long and try to apply those to the more complex 
investigations because the information the CSB shares and 
generates is critical and not just prevention but emergency 
response.
    I think in that regard, as Chairperson, if confirmed, we 
could predictably identify when we are going to need more 
resources or to restructure how an investigation is done in 
order to get more complex investigations completed in a timely 
manner.
    I certainly would be supportive of that. Most importantly, 
I think listening, learning and consulting with the staff and 
the current board members would be an easy first step in 
getting some ideas on how to implement that.
    Senator Boxer. Mr. Chairman, I am not going to have a 
second round, so I just want to close this.
    Senator Inhofe. Go ahead.
    Senator Boxer. Thank you.
    In my view, this is a really important issue, that you have 
not had the chance to really get into because obviously you are 
new to the board. I think it is critical to move without delay 
when there is a problem because if it takes forever, we cannot 
learn.
    I am going to ask for a little more detailed answer, if you 
would, just on how you would go about setting timelines and 
making sure that agency's morale picks up. Because frankly, the 
morale is very bad right now from being very high, because of 
the obvious problems that my Chairman has pointed out.
    Also, if you do not see an end to your work, it is 
depressing. You have to find closure on incidents. If you could 
give it a little more thought and perhaps get back to me on how 
you would set the deadlines, thank you very much.
    Ms. Sutherland. I would be happy to do so, Senator Boxer.
    Senator Boxer. Thank you very much.
    Senator Inhofe. Thank you, Senator Boxer.
    We have been joined by Senators Rounds and Gillibrand. We 
are in the process of the 5-minute opening questions.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    During recent congressional hearings, the EPA's Inspector 
General testified that his office has had extreme difficulty 
getting the full cooperation of CSB senior leadership in his 
investigations.
    Can you describe how you view the role of the Inspector 
General and what steps you would take as Chair to ensure that 
the EPA's Inspector General has the full cooperation of senior 
CSB leadership?
    Ms. Sutherland. Thank you for that question, Senator.
    I am not sure if many people know but my first job out of 
college was in an inspector general's office for the U.S. 
Department of Energy, so I am very familiar with and supportive 
of the great work that IGs do.
    At DOT, I certainly have a very collaborative and collegial 
relationship with our IG's office. We are very proactive in 
both referring cases to them and collaborating where we see a 
need to share information that we have uncovered, as well as 
being responsive to them when we have audits, both ordinary 
course audits as well as anything that we might want to focus 
on in more specificity.
    I see no reason why, if confirmed as Chairperson, I would 
not enjoy the same kind of respect, collaboration, 
collegiality, brainstorming and coordination with the EPA IG.
    Senator Rounds. As with the EPA's IG, the CSB leadership in 
recent years has been, shall we say, extremely reluctant to 
cooperate with congressional oversight committees. Can you 
describe how you view the appropriate oversight role of the 
committee as it relates to CSB and what steps you would take as 
the Chair to ensure that the committee has the full cooperation 
of your senior CSB leadership team?
    Will you commit to meeting regularly with Congress and 
providing updates on progress to address some of the lingering 
problems there at CSB?
    Ms. Sutherland. Thank you, Senator.
    I think communication is critical. Certainly, I am 
extremely supportive of approaching any Chairperson role in the 
vein of shared responsibility and communicating with the 
Oversight Committee, understanding the concerns and those of 
all stakeholders is a very essential role for any Chairperson.
    I think the second part of your question was, would I 
commit to meeting regularly. I think there is an absolute 
benefit to meeting regularly to understand what critical issues 
are. CSB is a small agency with a very, very meaningful and 
powerful mission.
    To the extent we are communicating well, explaining to 
people what we do and understanding how we might do that better 
and being forthcoming and sharing where there might be 
challenges to what we are doing and how we are doing it, I 
think is a great dialog to have in order for the team and the 
staff to get the resources they need, the board to be effective 
in explaining how it is carrying out the mission and quite 
frankly, for the CSB to become a little more better known as 
the valuable resource in the government that it is.
    Senator Rounds. Very good. Thank you.
    Mr. Chairman, I am completed.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, Ms. Sutherland, for testifying before our 
committee. I want to welcome your family. Welcome to this 
hearing. It is a big day for your mom.
    The Chemical Safety Board is tasked with the important role 
of investigating industrial chemical incidents. Their 
recommendations can help companies avoid these types of 
accidents in the future.
    CSB has received quite a lot of negative press lately. I 
hope the change in leadership will quickly reverse the downward 
trajectory of the CSB. This agency plays an important role in 
public health and workplace safety. The board must redirect the 
energy of its employees and refocus its mission.
    Following an investigation of a chemical facility incident, 
the board provides recommendations. These are integral to 
increasing workplace safety and preventing disasters of a 
similar nature from happening again.
    There is currently a 73 percent adoption rate for these 
recommendations. What are some ways, as chairman, that you 
could increase this adoption rate?
    Ms. Sutherland. Thank you, Senator.
    In my preparation for this particular hearing, the 73 
percent seems to actually be going up, so first, I would 
commend the phenomenal staff at CSB for their previous 
establishment of the Office of Recommendations within the CSB 
to do that very thing, to track progress and make sure the 
recommendations were being taken seriously, reviewed and 
adopted.
    Going forward, having worked at the NTSB at DOT, I think 
there are certain things that the Office of Recommendations can 
do, as well as the board members. The board members also play 
an instrumental role in participating in and reviewing reports, 
recommendations and helping to move them forward.
    I think contacting individual industries, companies, 
working with Federal agencies to understand some of the 
obstacles or challenges and then working with them definitively 
to try to reach resolution is a great thing.
    To the extent they can propose compromises or alternatives 
that would meet the same safety objectives, that would be a 
welcome approach as well.
    Certainly as a non-regulatory body focused on 
investigations, dissemination of information and sharing for 
prevention and response activities, I think continuing to make 
sure that message is carried further to underscore and amplify 
the importance of those recommendations outside of just meeting 
with stakeholders is a great thing.
    Senator Gillibrand. What are some of the strategies you 
hope to use to amplify education and outreach?
    Ms. Sutherland. I certainly think there are benefits of 
going to educational institutions, conferences. Using one 
example with the CSB, I was very impressed that the Chemical 
Safety Board investigation findings actually led to a change in 
university curriculum for chemical engineering.
    In that regard, that is powerful messaging. When you can 
amplify the reactive agent elements of chemistry that may have 
been overlooked or amplify that certain parts of curriculum 
need substantive and deeper experience before someone enters 
the workplace, those are great and wonderful stories and 
examples to have.
    I think the more the CSB can dedicate time, I know it is 
only 40 people and $11 million, and the board can play a 
critical role in sharing those kinds of examples of success, I 
think the more luck we may have in seeing the recommendations 
as an important factor in improving safety overall. It is a 
shared responsibility so we have a lot of stakeholders to 
cover.
    Senator Gillibrand. On the issue of safety and security, I 
am sure during your time with the Pipeline and Hazardous 
Materials Safety Administration it was clear that security, 
both the physical and cyber infrastructures, is of most 
importance.
    As chairman, are there ways you could focus on increasing 
both the safety and security of the Nation's chemical industry?
    Ms. Sutherland. I think safety and security are often 
integrally tied. At PHMSA, we have worked very closely with 
TSA, Homeland Security and various other agencies to ensure 
that safety is discussed and analyzed in the same context as 
those who unfortunately may have nefarious intent and want to 
highlight certain facilities for terrorist activity or other 
bad behavior.
    Although I know it is not squarely in the safety mission of 
the CSB, I certainly think the board members and the Chair 
could play a very critical role in engaging a similar 
conversation so that as we are looking at safety and 
understanding root causes, to the extent those are security 
related, that we share that information appropriately with 
others throughout the government.
    Senator Gillibrand. Thank you so much for your testimony.
    Ms. Sutherland. Thank you.
    Senator Inhofe. Thank you.
    We are going to have a second round of questioning. I think 
there will be another member arriving.
    Are you aware that Senator Lautenberg, who helped draft 
this legislation authorizing the CSB, believed that while the 
chairman exercised the executive and administrative functions 
of the board, in a 1999 letter, he said, ``There is no doubt in 
my mind, however, that the CSB chairman must perform those 
functions under the direction and approval of the board as a 
whole''?
    Are you aware that Randolph Moss, Acting Assistant Attorney 
General for the Department of Justice, Office of Legal Counsel, 
issued an opinion in 2000 saying ``In disputes over the 
allocation of authority in specific instances, the board's 
decision controls as long as it is not arbitrary or 
unreasonable''?
    Will you commit to this committee that if you are 
confirmed, you will follow the direction of Senator 
Lautenberg's 1999 letter and that of the Moss opinion?
    Ms. Sutherland. Thank you for that question, Senator. I am 
sure it is on the minds of many, given the governance 
challenges that have been identified over the last 12 to 18 
months. If confirmed as Chairperson, I certainly think that 
governance and the general cooperation among the board and the 
effectiveness of the board, would have to be a top priority.
    In consultation with my board members, I certainly think 
that revisiting the board orders is probably a good thing to do 
given how much controversy and ambiguity there has been 
regarding the interpretations and practices of the board 
orders.
    I absolutely commit to being collaborative and 
understanding that what we do is as important as how we do it. 
Chairs do not have unilateral authority to make all decisions 
for the board. I will absolutely collaborate and be collegial 
in making decisions that are going to affect the future and 
efficiency of the agency.
    Senator Inhofe. I think that is a long way of saying yes, 
as I read the statement made by Senator Lautenberg.
    Closely related to that, the current board members just 
passed a new order that temporarily gives back to the board 
some of its authority. It does not rescind Board Order 2015-1 
that I referred to in my opening statement. It is only 
effective to June 24 or until the new Chair is confirmed.
    What is your view of that order or are you familiar with 
that, the replacement order?
    Ms. Sutherland. I am only generally familiar with the 
replacement order and certainly defer to the three current 
board members as to how they operate before other members and a 
chairperson are confirmed.
    As I mentioned, given the fact that governance has been a 
topic for many years at the CSB, it would seem to me that given 
the challenges, it is critical for any incoming chairperson to 
meet with the members and potentially, whether it is repeal, 
modify, review, going forward, I think those board orders 
certainly deserve some clarity.
    If confirmed, I certainly would want to review all of the 
actions being taken in the interim and understand more about 
how the board would want to move forward.
    Senator Inhofe. From what you know now, you are somewhat 
familiar with that, do you have an opinion as to whether it 
goes too far, does it go far enough or anything concerning 
that? I think it is called 2015-26. Do you have an opinion on 
that?
    Ms. Sutherland. That, I do not have.
    Senator Inhofe. Board Members Griffon and Engler have 
testified they would like to see Board Order 2015 rescinded to 
restore public confidence in the CSB. You have already answered 
as to whether or not you agree with that, but I think something 
has to be done to restore confidence. This has been a problem. 
This was pointed out by Senator Rounds and myself. Our 
investigation resulted kind of resulted in the changes that 
have taken place that make this committee hearing necessary.
    Do you have anything to add as to your plan for dealing 
with this Board Order or do you see something else you could do 
in this area as a new chairman, if you are confirmed, to 
restore confidence?
    Ms. Sutherland. Trying to be short in the answer, boards 
and commissions operate in a very complex, legal and regulatory 
space. Orders over orders over orders can create a lot of 
confusion and ambiguity.
    If confirmed as chairperson, I think the first thing to do 
would be for the board, as a whole, to take a look at all of 
those Board Orders and determine collectively the best way to 
move forward.
    Certainly, as a chairperson and member, the Chair has a one 
in five conversation and vote on these very critical topics. If 
there is not agreement or understanding going forward, then I 
would fear that the same level of discord and mistrust would 
continue on the board. As a nominee, it feels premature for me 
to definitively know which specific Board Order may be the 
right or wrong one, given that they have caused a little bit of 
tension for many years.
    Senator Inhofe. I think that is fair.
    Senator Rounds, do you have further questions?
    Senator Rounds. Mr. Chairman, if I could, I would like to 
follow a little bit on the same line that you were following.
    I will go into a little bit of detail that we are kind of 
trying to work our way through. On January 28, 2015, CSB held a 
hearing to consider findings related to a CSB investigation. No 
notice was given to Board Member Mark Griffon or the public 
that a proposed Board Order was going to be considered and 
voted upon. No copy of the proposed Board Order was given to 
Board Member Griffon or the public to review prior to the 
hearing.
    Despite the lack of notice, Board Member Manuel Ehrlich 
offered Board Order 2015-01, the one the Chairman referred to, 
which rescinded 18 prior Board Orders and consolidated 
authority in the CSB Chairman. The Board Order was approved 
with Mr. Ehrlich and Chairman Moure-Eraso voting in favor of it 
and Board Member Griffon opposed to it.
    You can see the focus we have here. We are curious about 
your general thoughts on the process that was used to pass this 
Board Order. Maybe you were not aware of what happened. We can 
kind of suspect what your response will be but for the record, 
what was your general thought on the process used to pass this 
particular Board Order?
    Ms. Sutherland. You are correct. I was not familiar with 
the whys or the rationale for how that meeting came to be, the 
outcome or any of the details or specificity. I would say that 
having been on other boards, certainly not at this level, but 
non-profits and 501(c)(4)'s, having been a chairperson, having 
been president of a small organization, it is not necessarily 
what you do when you are leading people, it is how you do it 
and how you communicate it.
    Certainly as a chairperson, my goal would be to 
communicate, be transparent, and make sure all voices are 
heard. I think much of the challenge I have seen as just a 
citizen with the CBS has been a feeling, however legitimate, 
that there is not transparency, there is a lack of 
communication, that diversity of thought, opinion and 
perspective is not welcome.
    I do not think that you get the best outcomes or product 
when you are not transparent and communicate. As chairperson, I 
would lead with that approach.
    Senator Rounds. I think the example of how this particular 
piece of the process worked is a good example of probably how 
it should not have worked. Have you had a chance to discuss any 
of this process with the current members of the board at all?
    Ms. Sutherland. I have not.
    Senator Rounds. You have not. OK. Board Members Griffon and 
Engler have testified they would like to see this Board Order 
rescinded to restore public confidence in the CSB.
    Would you agree to sit down with them and consider their 
recommendation and basically talk about how you would plan to 
deal with, as you have heard, regaining that sense of 
confidence that there will be a process within the operation of 
the entire board that is a lot more transparent and open than 
apparently what has been going on in the past?
    Ms. Sutherland. That seems to be necessary to move this 
board forward in an efficient and effective manner so they can 
return to the focus of the CSB with less time and attention on 
governance and more time and attention on accidents and 
investigations.
    Senator Rounds. Very good. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Rounds.
    When you first introduced your family, your mother had not 
arrived. Has she arrived?
    Ms. Sutherland. She has.
    Senator Inhofe. I welcome you, Mom. You should be very 
proud to be a part of this.
    Ms. Sutherland. That is Audrey Allen.
    Senator Inhofe. Very good. Thank you very much.
    We do not have more questions. We appreciate very much your 
presence here and your answers to our questions.
    Ms. Sutherland. Thank you, Senator.
    Senator Inhofe. We are adjourned.
    [Whereupon, at 10:22 a.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    I would like to welcome our nominee here before this 
committee. Vanessa Sutherland was born at Sibley Memorial 
Hospital here in Washington, DC and after several days came 
home to Ft. Washington, MD where she lived in Tantallon until 
college. She attended a Queen Anne School, in Upper Marlboro 
from seventh grade through high school. She now lives in Ft. 
Washington, as do her parents and many of her siblings.
    I want to praise Ms. Sutherland for her dedication to 
public service and to thank her, and congratulate her, for 
picking the best State in the country in which to live much of 
her life.

                                 [all}
                                 
                                 
                                 
                                 
</pre></body></html>
